<html>
<title> - IMPLEMENTING THE U.S.-CARIBBEAN STRATEGIC ENGAGEMENT ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        IMPLEMENTING THE U.S.- CARIBBEAN STRATEGIC ENGAGEMENT ACT

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2017

                               __________

                           Serial No. 115-82

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
26-310PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>                                  
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Kenneth H. Merten, Acting Principal Deputy 
  Assistant Secretary, Special Coordinator for Haiti, Bureau of 
  Western Hemisphere Affairs, U.S. Department of State...........    10

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     4
The Honorable Kenneth H. Merten: Prepared statement..............    13

                                APPENDIX

Hearing notice...................................................    28
Hearing minutes..................................................    29
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    30
Questions submitted for the record by the Honorable Jeff Duncan 
  and the Honorable Eliot L. Engel...............................    33

 
        IMPLEMENTING THE U.S.-CARIBBEAN STRATEGIC ENGAGEMENT ACT

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order.
    I would like to now recognize myself for an opening 
statement.
    Our hearing today will provide oversight on the State 
Department's implementation of the U.S.-Caribbean Strategic 
Engagement Act, which became law last year.
    I commend the leadership of the ranking member of the full 
committee, Mr. Eliot Engel, and Chairman Emeritus Ileana Ros-
Lehtinen, for their leadership on this legislation and I 
appreciate the State Department's efforts to craft a strategy 
establishing a framework to enhance U.S.-Caribbean relations.
    This is the second hearing this subcommittee has held on 
the importance of Caribbean since I have begun my chairmanship, 
and there is strong bipartisan interest in this issue.
    With the exception of Haiti and Cuba, free and fair 
democratic elections in the region have, for the most part, 
been the norm.
    Since 2015, 11 countries in the region have held elections 
for head of government. Regional integration efforts by the 14 
countries in the Caribbean community, CARICOM, and in the six 
countries of the Organization of Eastern Caribbean States have 
also led to multiple lines of effort to strengthen the economic 
prosperity and security of the region.
    Today, the World Bank classifies five countries as high 
income and most others as upper middle income. However, Haiti 
is still the poorest country in the hemisphere and the region 
remains vulnerable to natural disasters, public health threats, 
drug trafficking, and rising crime and violence.
    The U.S. has provided considerable foreign assistance to 
the Caribbean through a variety of bilateral and regional 
programs. Haiti is the second largest recipient of U.S. aid in 
the Western Hemisphere.
    We have worked to help these island countries improve 
security and economic development for decades through tools 
like the President's emergency plan for AIDS relief, the 
Caribbean Basin Security Initiative, Caribbean Basin 
Initiative, Caribbean Energy Security Initiative.
    After all, the U.S. has a wide array of interests in the 
Caribbean. Our country is the Caribbean's largest trading 
partner. Millions of American tourists visit the region 
annually. Many businesses invest in the region and thousands of 
students from the Caribbean receive their academic training in 
the United States.
    From a border security perspective, the U.S. has 
significant interests in seeing the Caribbean achieve greater 
capacity to address organized crime networks, interdict the 
rising number of illicit drugs, and identify potential 
terrorist threats from radicalized individuals returning home 
from Syria.
    According to the State Department, five Caribbean 
countries--the Bahamas, Belize, the Dominican Republic, Haiti, 
and Jamaica--remain major drug-producing or drug transit 
countries.
    In addition, the crisis in Venezuela has only exacerbated 
drug trafficking through the Caribbean.
    As a consequence, unemployed and vulnerable youth in the 
region are often attracted to local criminal gangs and have 
increased the level of violence and insecurity in the region. 
Human trafficking and smuggling are also significant problems, 
particularly in the Dominican Republic and Haiti.
    Furthermore, the drug trade has attracted Colombian and 
Mexican cartels, Chinese organized crime, and the attention of 
terrorist groups like Hezbollah, which has used the drug trade 
for financing its terrorism worldwide.
    ISIS has also used the Caribbean as a recruitment tool, 
radicalizing individuals who have traveled from the region to 
Iraq and Syria. I am glad to know that the State Department's 
new strategy recognizes these challenges in its approach to the 
region.
    At the same time, tremendous opportunities exist for the 
Caribbean in the area of energy. Today, the average Caribbean 
resident pays three times the amount U.S. residents pay for 
electricity. Due to such high costs, many governments in the 
region are considering how to switch from oil to natural gas 
for electricity generation.
    As the region considers how to diversify its energy matrix 
and pursue greater energy security, the United States has 
technical skills and companies interested in energy investments 
in the region and an abundance of LNG that could be shipped to 
the region if the right infrastructure and integrated energy 
markets exist.
    Furthermore, given its significant offshore commercial 
finds in Guyana and French Guyana, the oil and gas potential in 
the Suriname-Guyana Basin and the energy opportunities in the 
Dominican Republic and Trinidad and Tobago, I see energy as a 
huge area for enhanced U.S. engagement in the Caribbean.
    In conclusion, I believe the timing for this strategy is 
very important as well. The OAS General Assembly meeting in 
Cancun, Mexico a few weeks ago was a disappointment in regards 
to CARICOM countries' unwillingness to support the regional 
consensus on democracy and human rights in Venezuela.
    As the situation in Venezuela remains unresolved and 
continues to deteriorate, there still remains an opportunity 
for CARICOM to do the right thing.
    I sincerely hope that enhanced U.S. engagement with the 
Caribbean through this strategy will lead to greater 
cooperation on Venezuela as well as other key United States 
interests.
    So with that, I will turn to the ranking member, Albio 
Sires, for his opening statement.
    [The opening statement of Mr. Duncan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Sires. I will turn it over to the ranking member, Eliot 
Engel.
    Mr. Duncan. I was going to let him have a statement in 
addition to yours. Mr. Engel, you are recognized for 5 minutes.
    Mr. Engel. Thank you, Mr. Chairman. I also thank Mr. Sires.
    You know, participating at the Western Hemisphere 
Subcommittee, for me, always feels like coming home. I was 
chairman of the subcommittee for 4 years from 2006 to 2010 and, 
Mr. Chairman, I appreciate your leadership and that of Ranking 
Member Sires on U.S. policy toward Latin American and the 
Caribbean.
    Thank you very much for holding today's hearing on 
implementation of the U.S.-Caribbean Strategic Engagement Act, 
which I authored with my good friend, Congresswoman Ros-
Lehtinen, and the coffee's from her office, too. Really makes 
this feel like Western Hemisphere.
    When President Obama signed our bill into law in December, 
we took an important first step in prioritizing our neighbors 
in the Caribbean, a region that is far too often, 
unfortunately, taken for granted.
    On June 19th, the State Department submitted to Congress 
the U.S. strategy for engagement in the Caribbean mandated by 
the law.
    This ambitious strategy was welcomed by Democrats and 
Republicans alike but now comes the hard part. We need to work 
together to ensure that it is fully implemented and has the 
resources it needs to succeed.
    I look forward to hearing from Ambassador Merten about the 
specific first steps that the State Department and USAID will 
take to prioritize the Caribbean in the coming years.
    An estimated 3.5 million people from the Caribbean live 
here in the United States, which accounts for 9 percent of the 
total foreign-born population here in the United States, and 6 
million people self-identify as members of the Caribbean 
diaspora in the United States.
    They represent an extraordinarily rich and vibrant part of 
the fabric of America. It can do so much to make our country 
stronger and strengthen our ties to countries across the 
Caribbean.
    Ambassador Merten, I urge you to reach out the Caribbean-
American diaspora and tap into their expertise and energy as 
you implement the new strategy.
    Finally, as my colleagues know, I am extremely troubled by 
the draconian cuts to the FY 2018 international affairs budget 
proposed by President Trump and Secretary Tillerson, including 
the devastating 37 percent cut for the Caribbean Basin Security 
Initiative to a level of $36.2 million.
    Representatives Ros-Lehtinen, Clarke, Love, and I led a 
bipartisan letter to the Appropriations Committee rejecting 
this proposed cut and today it was announced that CBSI will be 
funded in the FY '18 House bill at the FY '17 level of $57.7 
million. That is a tremendous victory.
    So Ambassador Merten, I look forward to your testimony 
today and I thank you again, Mr. Chairman, for holding this 
important hearing.
    Mr. Duncan. I thank the gentleman.
    And I will now recognize the former full committee 
chairwoman and now the chairwoman of the Middle East and North 
Africa Subcommittee, Ms. Ros-Lehtinen, for 5 minutes.
    Ms. Ros-Lehtinen. Well, thank you so much, Chairman Duncan 
and Ranking Member Sires. You have both been doing an excellent 
job of guiding this subcommittee.
    And what an important and timely hearing we have today. 
Thank you, Ranking Member Engel, for your leadership over the 
years on this issue and for authoring the United States-
Caribbean Strategic Engagement Act, which mandated the strategy 
which we are discussing here today. I was just a small part of 
that.
    And I have been proud to work with Mr. Engel as well as 
you, Mr. Chairman, and Ranking Member Sires on ensuring that 
the United States enhances our relation with our partners in 
the Caribbean.
    We often overlook the importance of our neighbors in our 
own hemisphere, particularly in the Caribbean. But not only do 
they play an important role in the region, they play an 
important role for our own national security interests.
    And that is why I join Mr. Engel in pushing for the 
administration to develop this multi-year strategy because we 
stand to gain from greater engagement with our Caribbean 
allies, particularly in areas like energy, education, health, 
and security.
    And so the State Department has responded by putting 
forward the strategy that we are here to discuss today. Thank 
you, Ambassador.
    The Caribbean 2020 strategy is a good framework document. 
It addresses many of the concerns and it focuses our foreign 
policy to endeavors that are worthwhile to advance U.S. 
national interests.
    But as we all know, a good strategy on paper still has to 
be implemented fully and properly in order for it to be truly 
effective.
    I hope to hear more in-depth a response on how the 
administration plans on implementing this strategy and how we 
in Congress can help in this effective rollout.
    As a member who represents south Florida with a large 
number of Caribbean Americans, this is so important to me and 
to my constituents and to my colleagues in south Florida.
    Of particular interest is, of course, engagement with the 
Caribbean what role the diaspora can play in helping bridge the 
gap between the United States and the region.
    The diaspora community can be one of the most effective 
tools we have for ensuring that our partners are properly 
aligned and that we are meeting the goals of our strategy and 
that can be key to creating more jobs both here in the U.S. and 
the Caribbean and in promoting prosperity and economic growth 
for all.
    I am also interested in hearing how the administration 
plans on addressing energy issues within the region. You have 
heard from the chairman how concerned he has been about the 
energy costs and many Caribbean countries also are dependent on 
Venezuelan energy.
    Venezuela has used its oil and natural gas to wield undue 
influence over the region. In fact, we have seen many important 
initiatives at the OAS fail to get the support that they need 
to pass because Maduro is still able to sway some votes with 
his oil and gas, and this is a travesty as these initiatives 
are aimed at supporting the people of Venezuela in their 
pursuit of a return to democracy, to put an end to corruption, 
and end to the violence in Venezuela.
    And as the chairman has pointed out, it is all so sad 
because the Caribbean pays an average of three times more for 
its energy needs than we do.
    And by working together, we can help lower their energy 
costs, wean our neighbors off of their dependency on Venezuela, 
find better alternatives.
    An effective energy strategy can help us address several 
areas of concern. I am eager to hear how we can plan on doing 
this. But perhaps the most important issue is the 
administration's strategy for addressing our mutual security 
concerns.
    The administration has rightly identified the threats to 
our security that we currently face in the region--narco 
trafficking, smuggling of illicit goods, and transnational 
criminal and terrorist organizations.
    Securing the Caribbean only serves to strengthen and secure 
our own borders and protects us from these greater threats. So 
I am pleased that the strategy identifies denying ISIS a 
foothold in our region as a priority because this is a serious 
threat, as we have seen some of those fighters come from 
certain areas.
    But when looking at the President's FY 2018 budget request, 
it seems as though the request may not be enough to meet our 
priorities.
    So I am eager to hear from our administration how to take 
this strategy from the planning phase to the implementation 
phase and it is an important undertaking, one that I think we 
are all here fully ready, willing, and able to support.
    Thank you, Mr. Chairman and Mr. Ranking Member.
    Mr. Duncan. I want to thank the gentlelady and Mr. Engel 
for their leadership on this, as you hear from their 
statements.
    And I will now recognize Mr. Sires for 5 minutes.
    Mr. Sires. Thank you, Chairman Duncan, for holding this 
hearing and thank you to Ambassador Merten for being here today 
with us.
    The U.S.-Caribbean relationship is characterized by 
extensive economic linkages, significant security cooperation, 
and strong U.S. assistant programs that support economic and 
social development including efforts to combat HIV/AIDS and to 
mitigate the effects of climate change.
    In order to grow this relationship, we must address key 
issues vital to the progression of the Caribbean. Last 
Congress, thanks to the leadership of Ranking Member Engel and 
Congresswoman Ileana Ros-Lehtinen, the House approved H.R. 
4939, the United States-Caribbean Strategic Engagement Act of 
2016.
    Designed to increase engagement with the Caribbean, this 
legislation required the secretary of state to submit a multi-
year plan to Congress for U.S. engagement with the Caribbean 
region and an update on its U.S. diplomatic efforts to engage 
the eastern Caribbean countries.
    We are here today because the administration has sent us 
its reports outlining avenues to increase engagement. It is 
clear that one of the most important issues to address is 
energy security.
    The Caribbean must search for other sources of energy as 
Venezuela, the region's largest energy trade partners, tumbles 
further into political and economic turmoil and the U.S. should 
be at the forefront helping the Caribbean make this transition.
    Supporting energy diversification in clean and sustainable 
energy projects is a must to improve the region's energy 
security and to help it move away from its dependence on oil 
from Venezuela.
    I am eager to hear how the administration plans on 
implementing their plan and how Congress can be supportive. I 
am concerned that President Trump's proposed budget cuts will 
prevent the implementation of these strategies from getting off 
the ground and want to hear how the administration is going to 
make this a priority.
    How can the U.S. push its objectives in the Caribbean with 
less and less funding? How can we engage with the Caribbean 
while eliminating the mechanism of engagement?
    As a global power, the United States faces challenges and 
threats from every corner of the world. However, it is vital 
that we remain engaged in the Western Hemisphere and not lose 
sight of our interests close to home.
    This subcommittee understands the importance of keeping a 
close partnership with our friends in the Caribbean and I hope 
to gain further insight into how the administration plans to 
continue and grow this partnership.
    So I look forward to hearing from our witness on how this 
plan would further increase engagement with the Caribbean 
despite these drastic budget cuts.
    Thank you.
    Mr. Duncan. I thank the ranking member.
    Other members are advised they can put opening statements 
in the record, and before we get started, Ambassador, there is 
a lighting system in front of you. I will recognize you for 5 
minutes.
    The light will go from green, yellow, to red. Get to red, 
we will start trying to wrap up. I will be a little lenient. 
But Ambassador's bio was provided to all the committee members 
beforehand so I won't read that.
    So at this time I recognize Ambassador Merten for 5 
minutes.

STATEMENT OF THE HONORABLE KENNETH H. MERTEN, ACTING PRINCIPAL 
  DEPUTY ASSISTANT SECRETARY, SPECIAL COORDINATOR FOR HAITI, 
 BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Merten. Well, thanks so much, Mr. Chairman and 
Ranking Member Sires and members of the subcommittee. It is 
great to be here, and thanks for the opportunity to testify on 
the Department's multi-year Caribbean strategy, which we 
submitted, as you noted, on June 19th under the U.S.-Caribbean 
Strategic Engagement Act of 2016.
    I would also like to thank particularly both 
Representatives Engel and Ros-Lehtinen for their leadership and 
efforts enhancing the relationships between the United States 
and the Caribbean.
    As we, I think, heard already, the Caribbean is United 
States' third border, characterized by common interests, 
societal ties, and other things that yield daily benefits for 
our countries' shared prosperity but also many common security 
threats as well.
    The department's multi-year strategy establishes a 
framework for enhancing U.S.-Caribbean relations in six broad 
areas--security, diplomacy, prosperity, energy, education, and 
health.
    On security, we will work with Caribbean governments to 
strengthen regional security and advance the safety of our 
citizens by pursuing programs to dismantle transnational 
criminal organizations, curb trafficking, and smuggling of 
illicit goods and people, strengthen the rule of law, improve 
citizens' security, and counter vulnerability to terrorist 
threats.
    On diplomacy, we will undertake increased institutionalized 
engagement that will forge greater multilateral cooperation at 
the Organization of American States and the United Nations.
    On prosperity, we will support U.S. exports and job 
creation by engaging with our Caribbean partners to promote 
sustainable economic policies and job-creating private sector-
led growth.
    On energy, we will seek to increase the use of low-cost 
reliable sources of energy to spur economic development that 
will create new opportunities for globally competitive U.S. 
energy firms and exports, particularly, as noted, in the area 
of LNG.
    On education, we will promote educational and cultural 
programs between the Caribbean and the U.S. that builds 
stronger economic partnerships, counter vulnerability to crime 
and extremism, and promote export of U.S. higher education 
services.
    On health, we will serve the U.S. national and security 
interests by improving health security, advancing public health 
and strengthening resilience to emergencies and disasters in 
the Caribbean.
    In consultation with USAID, the department has developed 
this Caribbean strategy by establishing a consulting multi-
stakeholder group that included members of the Caribbean 
diplomatic corps, some of whom are here today, Caribbean 
diaspora, private sector, civil society, and at least 18 U.S. 
Government agencies.
    I personally met with the Caribbean community's caucus of 
ambassadors and members of the Caribbean diaspora several times 
to solicit their input to the report which we submitted to you 
in June.
    The department has already developed an internal process to 
implement this strategy. The process relies on the same multi-
stakeholder group that provided input for the strategy itself.
    We have established interagency working groups on security, 
diplomacy, prosperity, energy, education, and health that have 
already begun meeting to plan and implement the various goals 
and initiatives featured in our strategy.
    We have designed an internal system for tracking the 
progress of these working groups, which we will use as the 
basis for the administration's 2-year update to Congress under 
the act.
    The department has already begun to deliver on the 
commitment to the enhanced diplomatic relations delineated in 
the strategy. Under Secretary of State for Political Affairs 
Tom Shannon went to meet with the CARICOM heads of government 
recently earlier this month.
    Our acting assistant secretary, Paco Palmieri, last month 
was in Trinidad and Tobago, and in March and in April I visited 
Jamaica, Haiti, and the Dominican Republic to talk about the 
strategy and other issues.
    We have begun planning a Caribbean trade conference 
scheduled to take place this autumn in Miami which will 
facilitate trade and investment opportunities for U.S. and 
Caribbean companies alike.
    As we begin this multi-year process, the department remains 
committed to continue working closely with you and your staffs 
to implement this Caribbean strategy.
    I look forward to your questions, and if I may just add one 
item. I am particularly gratified to you for creating the 
impetus for us to do this report because having served as 
Ambassador to Haiti at the time of the earthquake and 
thereafter, I can realize and know firsthand how 
transformational U.S. engagement on the ground in these 
societies can be. There is nobody that can really replace the 
United States and to augment in these close friends and 
partners of ours.
    I will leave it there, and I am ready to take your 
questions.
    [The prepared statement of Ambassador Merten follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. Thank you, Ambassador.
    I will now recognize myself for 5 minutes.
    We heard about the situation in Venezuela, which we all 
know about, continues to deteriorate ahead of the Constituent 
Assembly scheduled for the July the 30th, which I think is a 
mistake.
    I think the Trump administration has been pretty clear 
about how it feels about the Constituent Assembly that Maduro 
is proposing.
    Aside from the influence of oil, to what extent does 
corruption or financial debts play into the reluctance of many 
Caribbean countries to address the political situation in 
Venezuela directly or at the OAS?
    Ambassador Merten. You know, I think, you know, our 
engagement with many of these countries has been focused on 
enhancing the rule of law, our projects through USAID, and 
State Department's INL as well as some of the things we do to 
the Caribbean Basin Security Initiative I think have all worked 
to develop a partnership with these countries to hopefully 
strengthen institutions to make them more resilient and 
resistant to corruption.
    I think those efforts will continue. We are certainly going 
to redouble our efforts to engage. As I mentioned, you know, we 
have had Under Secretary Shannon meet with CARICOM heads of 
government and our other engagement by senior officials at the 
State Department is ongoing.
    We think that, you know, continuing to work with these 
partners to strengthen their institutions, to increase their 
prosperity so that people don't need to resort to corruption to 
line their pockets are key initiatives and I think one of the 
ways we can help do this is to increase private sector 
engagement in the Caribbean--not only private sector from the 
United States, but local private sectors and I think this can 
serve as a type of inoculation against corruption.
    Mr. Duncan. So we heard in my opening statement people from 
the Caribbean nations that have traveled to Syria to fight for 
ISIS. Many have come back.
    How concerned is the administration over that?
    Ambassador Merten. It is certainly a concern. We have had 
good conversations not only with State Department elements but 
elements from other agencies like the Department of Defense and 
others in countries where this is a particular concern.
    I have to say we have been very, very pleased with the 
information sharing and the cooperation we have received. 
Obviously, it is an area where we need to remain continuously 
vigilant and we encourage our partners to remain vigilant. 
Where we may have an ongoing challenge is, in some cases, their 
ability to track and follow these individuals.
    But, again, through, hopefully, good information sharing we 
can facilitate their task in that regard.
    Mr. Duncan. All right.
    With the U.N. pulling their troops out of Haiti, is Haiti 
ready for the security of the country?
    Ambassador Merten. You know, we have all, for many years, 
used the benchmark of 15,000 Haitian police officers or agents 
on the street in the country as the benchmark at which point 
Haiti can think about really policing itself.
    Haiti has reached that number and I think we need to 
realize that MINUSTAH never really was a typical peacekeeping 
mission. It was really a law enforcement mission, and with that 
law enforcement capacity in place, granted, I don't want to in 
any way imply that the work is done there.
    The Haitians need to continue to train, and they are--to 
continue to train and deploy new officers and get them out in 
the field. But I think as that happens, we are going to see 
things in Haiti stabilize.
    But I think we have been very proud of our involvement with 
the Haitian National Police and we have been pleased to see how 
that force is developed.
    In the recent difficult election cycle, it was really the 
Haitian National Police alone that ensured for the security and 
safety of voters and they did an excellent job, quite frankly.
    Mr. Duncan. Thank you for that.
    My last and final question--Secretary Tillerson comes from 
an energy background. You have heard me talk in this committee 
many times about energy. I think it is a great segue for 
bilateral cooperation.
    The Caribbean nations are relying on Venezuela and we know 
the situation there. There is opportunity for American 
businesses, especially in the area of LNG exports, to provide 
energy to the Caribbean nations.
    I realize there is some infrastructure upgrades that are 
going to be needed, not just from the power plants themselves 
but transmission pipelines and LNG reversing plants and 
everything else to make it feasible.
    Is that a focus of the State Department as far as using LNG 
or energy in general as a segue for more cooperation in the 
region?
    Ambassador Merten. Well, I think that is a great 
observation and something certainly that we are encouraging.
    You know, our involvement with the Caribbean on energy goes 
back many years. In fact, Vice President Biden in the last 
administration started an initiative to look at various types 
of alternatives to petroleum-based energy or power generation 
in Caribbean countries, and as several of you pointed out, 
their electricity generation costs are, in just about every 
country, significantly higher than here.
    I think the LNG example is a particularly good one. It's 
one where I believe that is already we have a good example in 
the Caribbean and that is Jamaica where I understand they are 
in the process of really allowing that to take off, thus 
reducing the cost of electricity generation there.
    It is something that I think does not necessarily need a 
huge amount of government involvement. What it needs is a 
framework which will allow the companies to operate and build 
the necessary infrastructure, as you pointed out.
    I am hoping in our discussions with our partners in the 
region that we can actually have this kind of discussion with 
them and perhaps with members of the private sector, energy 
companies who are specializing in this area to perhaps educate 
all of us a little bit more on this.
    Thanks.
    Mr. Duncan. Thank you for that.
    I now yield to Mr. Engel, 5 minutes.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Ambassador, I have three questions. I am going to try 
to condense them and be as brief as I can. But I think they are 
all important.
    You have been mentioning Haiti a lot so let me just say 
that temporary protected status for Haitians living in the 
United States expires on January 22nd, 2018.
    If President Trump does not extend TPS, 50,000 Haitian 
Americans will be sent back to the poorest country in the 
hemisphere, which is still suffering from the effects of not 
only the 2010 earthquake but also Hurricane Matthew and the 
ongoing cholera epidemic.
    I would like to insert into the record a letter from the 
New York delegation to Secretaries Tillerson and Kelly on this 
topic that was sent on May 5th of this year. I was one of the 
people who signed this with Mr. Espaillat and other members of 
the delegation. So I would like to enter that into the record.
    And given the country's food insecurity crisis and massive 
homelessness, how well prepared is Haiti to absorb this 
population and if these individuals are forced to return to 
Haiti, what would be the implications for migration flows 
through the Dominican Republic and other countries in the 
hemisphere?
    And finally, we know that 15 percent of Haiti's GDP is made 
up of remittances from the United States. If we end TPS at the 
same time when we are cutting foreign assistance to Haiti, what 
could the impact of this dual blow be?
    Let me see if you can answer some of those and, if not, you 
can put something in writing and then we could do it at a later 
date.
    Ambassador Merten. Sure. I am happy to talk a little bit to 
that.
    As I think you know, DHS Secretary Kelly made a decision in 
either late May or early June of this year to extend the 
benefits of TPS for the Haitian TPS beneficiaries for 6 months.
    At the end of that period, so sort of in November of this 
year, he will look again at the situation and make another 
determination as to how DHS will act.
    In the interim, we will be asked--we, the State Department, 
will be asked and the Embassy will be asked to provide a 
country conditions report to DHS.
    I don't want to prejudge the outcome of the report that 
they are going to generate. They are going to look at facts on 
the ground and submit that and that will be our submission 
effectively to DHS.
    I understand your concerns and we are certainly very aware 
of the delegation's concerns about TPS. In my discussions with 
the Haitian diaspora community, it is a subject that comes up 
with great regularity. So I am most familiar with the concerns.
    Mr. Engel. Thank you.
    One of the things that I have been pushing for for a long 
time, and I continue to be shocked that the United States still 
has no diplomatic presence in five key countries in the eastern 
Caribbean--St. Lucia, Antigua and Barbuda, St. Kitts and Nevis, 
Dominica and St. Vincent, and the Grenadines.
    Venezuela and Cuba have Embassies on all five of these 
islands while the United States does not have a single diplomat 
in place.
    I was pleased that the State Department's new strategy 
acknowledged this fact. But now we need a plan to move forward 
in establishing a diplomatic presence.
    These, of course, don't have to be costly multimillion 
dollar Embassy compounds but can be smaller diplomatic posts.
    So what is the impact of our diplomatic absence in these 
countries, particularly when countries that are not so friendly 
to us are there?
    What are the State Department's plans in the short- and 
long-term to expand our presence in the eastern Caribbean?
    Ambassador Merten. Thanks for the question.
    I think--you know, in the immediate term I don't think 
there is going to be funding available to open new diplomatic 
facilities.
    What we are looking at is ways at which we can--internally 
we are looking at ways which we can bring--do a better job of 
bringing some of those diplomatic services to those countries. 
Currently, as I think you know, they are all handled out of 
Bridgetown, Barbados. So we are looking at our processes and 
seeing what we can do.
    Currently, these countries are served by our Ambassador to 
Bridgetown, Barbados, who is accredited to all those countries 
and who makes regular visits to them and members from the 
Embassy country team, and we are going to be looking at ways at 
which they can continue to improve their outreach.
    But should funding become available then certainly we will 
be working with our OBO, Official Buildings Office, I believe, 
is what it is called, within the State Department to see what 
will be within the realm of the possible.
    Mr. Engel. Let me just say, I appreciate your answer, but 
let me just say that I think some special funding should be 
found for this because it would go a long way and it is crazy 
while Cuba and Venezuela are there and China is there, the 
United States, which is so close, is not.
    And then finally, very quickly, I want to raise the issue 
about LGBT Americans who travel to the islands of the 
Caribbean. There is a lot of anti-LGBT climates in many of 
these countries with laws that are really arcane.
    Has the State Department implemented any strategic dialogue 
with countries of the region on the need to temper some of 
these climates with a view to supporting the tourism that is so 
important to their economy? And if not, can you please commit 
to doing so?
    Ambassador Merten. Thanks for the question.
    I think, you know, we have been active. The State 
Department has been active on this issue in the past. I think 
there are certain cases where we have continued to talk to 
people quietly.
    I think it is a situation where you need to judge each 
country differently and judge what is going to be the most 
effective way to ensure that you approach a government to get 
the desired output, which is nondiscrimination and embracing 
all people.
    So we continue on that path.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman. You have been very generous with 
the time. Thank you.
    Mr. Duncan. I thank the gentleman.
    I will now go to Ms. Ros-Lehtinen for 5 minutes.
    Ms. Ros-Lehtinen. Well, thank you very much, Mr. Chairman 
and Mr. Ranking Member, and thank you to Mr. Engel about 
bringing up two issues that we have worked together on--LGBT 
issues and also TPS for Haitians.
    As Mr. Engel has pointed out, it would be a blow to our 
south Florida economy to see these wonderful members of the 
Haitian diaspora have to leave our community and it would be, I 
think, a difficult situation for Haiti to have to absorb so 
many people so quickly, remittances being such an important 
part of the Haitian economy.
    Well, as I had mentioned earlier and was echoed by my 
colleagues, especially the chairman, Venezuela has been able to 
wield such incredible influence, particularly at the OAS over 
these Caribbean nations, which has led to some unfortunate 
events--results when voting on important measures. We saw that 
just recently in their latest voting fiasco in the OAS.
    Does this strategy give us the ability to create enough 
leverage over our partner nations in the region to have them 
turn away from Venezuela, become more in line with the 
interests of the entire region, and how can we in Congress be 
more effective in helping to promote this initiative?
    Ambassador Merten. Thanks.
    I think, you know, we more than share your disappointment 
about some of the votes on Venezuela. I think it is important 
to note, though, that we, through, I think, pretty intensive 
engagement, again, by Under Secretary Shannon, my colleagues, 
and others, going to many countries in the Caribbean including 
many CARICOM countries we were able to get a number of 
countries to support our position.
    That work is ongoing. We are going to continue. I think the 
strategy is very important in that it mandates us to increase 
our engagement, as I think you will notice from what we have 
submitted.
    We have called for enhanced higher-level dialogue with our 
Caribbean partners and we keep up a regular schedule of 
meetings and, again, we hope that our engagement not just at 
the times we are seeking a vote but our ongoing engagement, 
which is something that the strategy insists that we do and 
which we will do, is going to give us more leverage with our 
partners in the Caribbean to hopefully line up better with us 
on what priorities are, in this case Venezuela.
    Ms. Ros-Lehtinen. Well, we hope so, and, as you know, 
Sunday was the pivotal day in favor of democracy for the 
Venezuelan people.
    Over 7.7 million Venezuelans voted against Maduro's regime 
and in favor of freedom and the constitution and the rule of 
law.
    Another important turning point will come at the end of 
this month when Maduro holds his fraudulent Constituent 
Assembly vote, which violates the constitution.
    And so I hope that our Caribbean neighbors take note of 
what this is doing and if they are true to their own charters 
and their own reflection of their democratic governance they 
should be rejecting, as the United States has been, this 
fraudulent election.
    On the budget, FY 2018 budget requests for the Caribbean 
Basin Security Initiative--$36.2 million--represents a 37 
percent cut from last year.
    Fortunately, yesterday the State Foreign Ops Subcommittee 
released its appropriation request. Got $57.7 million, so maybe 
we will end up somewhere in between.
    How will we be able to provide adequate security support 
for the Caribbean if these cuts are going to be implemented, 
sir?
    Ambassador Merten. Well, you know, we are here to support--
I am here to support the President's budget as submitted. I 
think we need to realize as we have gone through this process 
back at our department that some of our most powerful assets 
are not necessarily always our assistance.
    But we have assets on the ground in our Embassies in terms 
of our ambassadors and diplomats from all different U.S. 
Government agencies on the field and we are going to be as 
smart as we possibly can be in deploying those assets and we 
are going to continue our engagement and, again, as I said, 
ramp up our engagement with our partners.
    So I think, you know, we need to--we need to focus on what 
assets we have available on the ground and we are going to----
    Ms. Ros-Lehtinen. Thank you.
    Ambassador Merten [continuing]. Make best use of that.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman and Mr. Ranking 
Member.
    Mr. Duncan. Absolutely, and great questions.
    I will now go to the ranking member, Mr. Sires, for 5 
minutes.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, Congress has appropriated about $500 million in 
funding for the Caribbean Basin Secure Initiative from FY 2010 
through FY 2017 to help the region bring down crime levels and 
deter illicit trafficking through the region.
    How effective has that program been?
    Ambassador Merten. I think--you know, we have in fact just 
gone through an analysis of the CBSI and how effective it has 
been.
    Our estimation is overall that we have got a good return on 
our investment for that engagement. We have been blessed by 
good levels of funding in past years for it and I think we have 
been able to do a lot not only to provide security but to 
provide other infrastructure and rule of law support for our 
partners in the region.
    So overall, I think we have made good use of it. Again, I 
think it is important to remember that these investments that 
we have made through CBSI are really an investment for us, the 
United States, because they help these countries which are, as 
several of you mentioned, our third border, really help 
themselves to build more secure societies.
    Mr. Sires. And what population do you consider the most 
vulnerable in the Caribbean right now?
    Ambassador Merten. That is actually a very good question. I 
think, you know, Haiti, as the chairman mentioned, remains the 
poorest country in the hemisphere.
    I think while Haiti has, thankfully, come through a good 
election process and inaugurated a new President this year, 
much work remains to be done there in terms of justice reform, 
in terms of creating a more business-friendly environment.
    In my analysis, the key to really seeing Haiti take off is 
to create an environment where Haitians can really begin to 
help themselves through creating economic opportunity and 
through investment--through foreign and domestic investment 
there.
    So but having said all that, I think that Haiti remains 
perhaps the most vulnerable place.
    Mr. Sires. And can you give me a couple of success stories 
in our engagement in the Caribbean? Can you be a little 
specific?
    Ambassador Merten. I will give you one right off the top of 
my head, which I hate to be a Johnny one-note, as my mother 
used to always say.
    But I think our engagement in Haiti after the earthquake 
saved hundreds of thousands of lives and the kind of 
infrastructure that our military and our colleagues at USAID 
and, frankly, our Embassy on the ground was able to provide in 
an incredibly short period of time was really a life changing 
experience for many, many Haitians and I think it is something 
for which we as American citizens can be very, very proud.
    I think our engagement throughout the Caribbean in terms 
of, you know, not only the tourist dollars that are spent but 
the investments that we can bring, whether it is through 
companies that are in mining or other types of things.
    As you mentioned, in Guyana there will be U.S. companies 
that will be deeply involved there. I am hoping that that is 
going to be a real success story for the future as we see 
private investment go to work there.
    Mr. Sires. And what are we doing to promote human rights in 
Cuba if we get some of these cuts? Promoting human rights in 
Cuba--how are we doing there?
    Ambassador Merten. We are still working with the Cubans on 
that. That still remains an absolute priority for us. As you 
know, the administration announced a couple weeks ago a change 
in our policy toward Cuba.
    One of the key goals of that change is to get them to take 
seriously the concerns that they hear from this committee and 
certainly from us--the shortcomings on human rights and to 
address those challenges.
    Mr. Sires. Thank you, Chairman.
    Mr. Duncan. Okay. The Chair will now go to Ms. Kelly for 5 
minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    My previous two colleagues asked a couple of the questions 
I wanted to ask but I wanted to know also how will our new 
relationship with Cuba potentially affect our relationships 
with economic and political contributions of other nations in 
the Caribbean since a lot of the other nations wanted to--
seemingly wanted us to better our relationship with Cuba and 
now that we have made some changes under this administration 
what are the other countries saying?
    Ambassador Merten. To be quite frank with you, I am not 
really aware that we have heard strong statements from most of 
the Caribbean countries about the changes in our Cuba policy.
    You know, I think tourism for many of our partners in the 
Caribbean remains a key industry and I think that, you know, 
the more tourists that they can attract the better their 
economies are going to be.
    Ms. Kelly. And have you had any feedback from even American 
citizens because so many people went to Cuba when they had the 
opportunity?
    Ambassador Merten. I am happy to take that question back. I 
am not the person that deals with Cuba on a day to day basis. 
And I am not trying to dodge your question.
    I just don't know the answer and I don't want to give you 
the wrong information But we can take that back and get you a 
written response if you would like.
    Ms. Kelly. Okay. I would appreciate that. Thank you.
    I yield back.
    Mr. Duncan. The Chair will now go to Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman and Ranking Member 
Sires.
    The Caribbean is an important region for us not only 
because of its proximity and its geopolitical importance but 
for the economic and security partnership that traditionally 
has characterized the relationship between the United States 
and that region of the world.
    Therefore, I am appreciative of Chairmen Duncan and Sires 
for hosting this hearing and also for Ranking Member Engel and 
Congresswoman Ros-Lehtinen for their leadership in passing the 
U.S.-Caribbean Strategic Engagement Act last Congress.
    These countries in the Caribbean, as I said, are important 
because of their proximity and the role that they should play 
to curb and control drug trafficking, human trafficking, 
anything that goes on--negatively that goes on and that 
eventually manifests itself in our country.
    The State Department's multi-year strategy they referred, 
as you said, to the Caribbean as the third border and 
emphasized the need for strengthening our mutual national 
security and the need to curb trafficking, smuggling of illicit 
goods and people.
    That is why funding--fully funding the Caribbean Basin 
Security Initiative is crucial for national security. We cannot 
afford to cut it. It is deeply troubling to me that the White 
House and Secretary Tillerson have proposed a 37 percent cut.
    Congress must reject it. We were encouraged by 
Appropriations' allotment of $57.7 million to the CBSI for this 
fiscal year of '18.
    While the Fiscal Year 2018 foreign operations 
appropriations bill leaves much to be desired, it is important 
that we continue to fund this initiative. As General Mattis 
said, if we don't fund diplomacy we got to buy more bullets.
    And so it is important that we continue to encourage these 
initiatives. I am proud to have commissioned a request--a 
letter signed by Congressmen Duncan, Sires, Engel, and 
Congresswoman Lehtinen asking the GOA to study the impact of 
the Caribbean Basin Initiative.
    This includes asking them to prepare a report that responds 
to the measurable outcomes and progress that CBSI has made 
toward reaching its intended goal.
    So my question is to you, Ambassador, if these cuts are 
eventually approved, what do you have on the chopping blocks in 
regards to this particular program?
    What is our priority untouchable that you would not touch 
if these cuts are actually fulfilled and what will eventually 
have to be gone from the table if the 37 percent cut sustains 
itself?
    Ambassador Merten. Thanks for the question.
    You know, as I understand it, that the idea behind the CBSI 
initiative was eventually that that funding would taper off and 
perhaps it was not intended to taper off as early as FY 2018 
but that is the current vision.
    I think we need to remember that at least in our analysis 
that what CBSI helps these countries do is just that. It is 
help. At the end of the day, these are responsibilities and 
programs that we would hope these countries would take on and 
develop on their own one day at a certain point when CBSI 
funding is no longer there, whether that is in FY '18 or much 
further in the future.
    And I think we need to realize that at the end of the day 
these are sovereign countries who are going to need to be 
responsible for undertaking these kind of responsibilities on 
their own.
    Regarding what we would look at as--in that, I think we 
haven't started that process yet of determining how we would 
envision that cut.
    So I don't want to go into that now and mislead you or give 
you some ideas that end of proving not to be the case.
    Mr. Espaillat. Thank you.
    I yield back my time.
    Mr. Duncan. Thank you.
    And the Chair will now go to the gentleman from Florida, 
Mr. Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate you 
being here, Ambassador.
    This has been an interest of mine since I have been on 
Foreign Affairs and I applaud Chairman Duncan for putting an 
emphasis on bringing energy security down there to the 
Caribbean nations and to other nations in that area as far as 
economic development and things that we can do about that.
    I recently spoke to the gentleman that was in charge of 
WAPA in the U.S. Virgin Islands and we were talking about 
getting LNG coming from the United States down in that area and 
he informed me that they had just signed a--I think it was 7- 
or a 10-year contract with a Norwegian company--I can't 
remember the exact company--and my goal is to--hopefully, to 
where we can get the United States gas in that area.
    What impediments do you see when we look at the whole 
Caribbean basin? And I know you deal a lot with Haiti--you 
represent Haiti--and give us your thoughts on that, please.
    Ambassador Merten. Thanks.
    I will speak specifically to the Haiti case since I know 
it. I think what is lacking in Haiti is a legal framework to 
allow there to be a significant change in the way power is 
generated and distributed within the country.
    We actually have some of USAID funded in the north--
northern part of the country where we are generating 
electricity as part of the Caracol Industrial Park and 
delivering some of that power that is delivered to surrounding 
communities.
    This is a model that hasn't existed in Haiti before and it 
is running independent of the Central Electrical Authority. Not 
only does it generate electricity but they also recover their 
costs and provide cheaper power than people would get from the 
Central Electricity Authority.
    I think that is a good model for Haiti and something we 
hope that the Haitians will find the political will to change 
their legal system.
    For the other Caribbean countries, I am a little bit--I 
will be honest with you, a little bit less well informed. I 
believe there, too, in many countries there are legal 
frameworks which are in place which make it difficult to 
quickly install these kind of alternatives.
    This is something, though, that we have been working with 
several Caribbean partners on and hope to continue to do so. 
And as I mentioned earlier, I believe before you arrived, I 
think--completely agree with you on LNG.
    I think there is--as I recall from my visit to Jamaica I 
believe there is a good model there of a situation where LNG 
has helped them reduce their costs of generating electricity.
    Mr. Yoho. The U.S. Virgin Islands also have got a model.
    Ambassador Merten. Also. Right. And this is a great 
opportunity----
    Mr. Yoho. It is.
    Ambassador Merten [continuing]. That people should be 
looking to and borrowing from.
    Mr. Yoho. Well, it is and it is an area that America can 
lead in this and, you know, it would be a stable source. It 
would be good for America. It would be good for our Caribbean 
partners.
    What about the willingness of the governments, especially 
Haiti? You know, they have gone through so much turmoil. I am 
62 years old and it seems like they are always a country under 
turmoil.
    The willingness of the government to play a supporting role 
in this--what do you see as their primary impediment? Is it the 
rule of law? The lack of the rule of law or corruption?
    Ambassador Merten. In the case of Haiti, I think the 
primary impediment is that a system of centralized control of 
national power generation was set up a long time ago, frankly, 
under the Duvalier regime and it has never been changed because 
there are some very entrenched political and economic interests 
from a number of different persuasions who benefit from the 
current structure and therefore it has been very, very 
difficult to get people to the point where they see it is in 
the national interest to change that structure.
    Mr. Yoho. Expound on the political structures. What is the 
block there? Because I have heard something about a couple 
administrations ago a brother-in-law had the rights to an area 
in Haiti as far as power.
    Ambassador Merten. There is, I think by our standards, a 
somewhat complex structure the way electricity is generated, 
produced, and distributed in Haiti.
    The actual electricity company--and tell me to stop if I 
get too much in the weeds here on this--but the actual 
electricity company generates very little electricity itself. 
It pays other companies to generate that electricity and the 
rates that it pays those companies to generate that electricity 
varies significantly from company to company.
    Some companies get paid less. Some companies get paid more. 
That tends to hearken back to when those deals were signed with 
those power producers and their political access.
    Mr. Yoho. I am going to cut you off because I am out of 
time and I----
    Ambassador Merten. There we go. Sorry.
    Mr. Yoho [continuing]. Appreciate the chairman's 
indulgence. But I will follow up with you. Thank you.
    Mr. Duncan. I thank the gentleman.
    Mr. Chris from New Jersey, any questions? Statement? 
Anything?
    Mr. Smith. I'd ask that there could be questions submitted 
in the----
    Mr. Duncan. Yes. That would be fine. Okay.
    Pursuant to Committee Rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record.
    I want to thank the Ambassador for being here. Fabulous job 
answering questions. This is an interesting topic to this 
subcommittee as well as the full committee, as you know.
    We are going to keep the hearing record open for 5 days to 
allow statements, questions, and extraneous materials to be 
submitted to the record, and there might be additional 
questions that come your way.
    I doubt it, but we could have some written questions coming 
your way. I just ask if you will try to answer those in a 
timely manner. I don't believe that will be the case.
    Thank you so much for being here and all the folks in the 
gallery that show an interest in this topic, that is important 
to us. We don't say that enough. I appreciate you being here as 
well.
    So thank you, Ambassador, and with that, we will stand 
adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
